              The Integrated Financial System Project Team
                Needs to Resolve Transition Planning and
               Testing Issues to Increase the Chances of a
                         Successful Deployment

                                    August 2004

                       Reference Number: 2004-20-147




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     August 13, 2004



       MEMORANDUM FOR CHIEF INFORMATION OFFICER
                      CHIEF, MISSION ASSURANCE


       FROM:                        Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

       SUBJECT:                     Final Audit Report - The Integrated Financial System Project
                                    Team Needs to Resolve Transition Planning and Testing Issues
                                    to Increase the Chances of a Successful Deployment
                                    (Audit # 200320043)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       Integrated Financial System (IFS). The overall objective of this review was to determine
       if adequate testing processes and procedures were being followed prior to the
       deployment of the IFS to ensure the system meets expectations. Additionally, we
       determined if the IFS project team was adequately planning for the transition of
       operation and maintenance of the system from the contractor to the IRS.
       In summary, the IFS is intended to provide administrative financial management
       information essential for financial statement preparation. In addition, the development
       of the IFS supports one of the President’s Management Agenda initiatives to improve
       financial performance, which involves ensuring Federal Government financial systems
       produce accurate and timely financial information. The IRS and the PRIME contractor1
       recently announced that the IFS would not be deployed until October 2004, a delay of 1
       year from the originally scheduled deployment date. While the IFS project has
       experienced delays, the project team has made progress in the areas of System
       Integration Testing (SIT),2 transition planning, and security test planning. We


       1
         To facilitate success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the PRIME
       contractor and integrator for the Business Systems Modernization (BSM) program and created the Business Systems
       Modernization Office to guide and oversee the work of the PRIME contractor.
       2
         The SIT ensures all system components (hardware and software) are working correctly and collectively with other
       related or dependent systems. The IFS project is also performing Systems Acceptance Testing (SAT) as part of the
       SIT. SAT independently assesses the quality of a system and the system’s readiness for implementation.
                                                            2

determined that significant integration testing was underway, and the risk of the IRS
Information Technology Services organization not being able to operate and maintain
the IFS had been reduced. In addition, the IFS project team became the first Business
Systems Modernization project team to complete a Transition Management Plan. Also,
a detailed IFS Security Test and Evaluation (ST&E) Plan has been prepared.
While the IFS project team continues to make progress, improvements can be made in
the areas of transition planning and testing to increase the chances of a successful
deployment. To provide timely feedback during critical transition and testing activities,
we communicated the results of our analyses during the audit; these communications
are discussed throughout the report.
To ensure transition planning issues are resolved prior to acceptance of the IFS by the
IRS and transition management is considered when exiting appropriate milestones, we
recommended the Chief Information Officer (CIO) ensure outstanding IFS transition
issues are documented and tracked to closure and the Enterprise Life Cycle (ELC)3
Milestone Exit Criteria4 are updated to include completion of the Transition Management
Plan. To ensure IFS testing results in a high-quality product and future modernization
projects are improved through lessons learned by the IFS project team, we
recommended the CIO ensure 1) the Requirements Traceability Verification Matrix
(RTVM)5 is updated to include a verification and validation method for all requirements,
2) deviation forms6 are updated to include a signature line for all required approving
officials, 3) the root cause is investigated and resolved for why defects7 are more
voluminous than expected and for why defects are being evaluated and resolved slower
than expected, and 4) the ELC is updated to include a requirement for entrance and exit
criteria8 in the ST&E Plan. To ensure planning for the upcoming IFS ST&E is as
thorough as possible, we recommended the Chief, Mission Assurance, ensure all
needed elements from the Internal Revenue Manual (IRM) are included in the ST&E
Plan and trusted recovery9 and object reuse10 testing occurs (or the risk of not
conducting these tests is documented).



3
   BSM processes and procedures are documented within the ELC. See Appendix IV for an overview of the ELC.
4
  The IRS uses Milestone Exit Criteria to determine whether modernization projects are ready to proceed to the next
life cycle milestone.
5
  The RTVM is a tool used to ensure each system requirement is tested by assigning it to one or more test cases.
This tool helps ensure all requirements are tested.
6
  Test Case Deviations and Waivers Forms include requests for verification of a requirement or set of requirements
to be moved to another phase or for the obligation to verify functionality, such as a requirement or set of
requirements, be deleted.
7
  A defect is a perceived problem found in software, documents, hardware, or other controlled products. Defect
processing is the process of documenting the defect, tracking the defect and its corrective action, and reporting the
status of each defect.
8
  A best practice in test planning is to create a predefined set of criteria used to determine when a test is ready to be
conducted (entrance criteria) and when a test has been completed at an acceptable quality level (exit criteria).
9
  Trusted recovery controls refer to procedures and/or mechanisms available to assure that, after a system failure or
other discontinuity, recovery without compromise is possible.
10
   Object reuse controls are designed to ensure the authorized user of the system does not obtain residual data.
                                            3

Management’s Response: Management agreed with seven of our recommendations
and disagreed with one recommendation. The IRS responded that it is now including
the correct signature line on deviation forms and using an issue tracking log to monitor
transition issues. The IRS also plans to update the IFS RTVM and ST&E Plan, ensure
a lessons learned report is generated, and update the ELC to ensure that projects
develop a Transition Management Plan.
In addition to responding to our recommendations, the IRS indicated that it has
assigned the Chief Financial Officer full-time to the IFS Project, negotiated a
cost-sharing arrangement with the PRIME contractor to balance financial risk, and
begun validating the integrity of the system. The PRIME contractor has also bolstered
its management team with key skills. Management’s complete response to the draft
report is included as Appendix VII.
Office of Audit Comment: The CIO disagreed with our recommendation to ensure that
trusted recovery and object reuse testing occurs, or the risk of not conducting these
tests is documented. The IRM requires that correct implementation of object reuse and
trusted recovery be validated as part of the ST&E. In addition, the IRS is planning to
test object reuse capabilities on one of two computer platforms. The IRS responded
that object reuse testing is no longer required by the Department of the Treasury. While
the Department of the Treasury requirement may have changed, the IRM still requires
object reuse testing. Therefore, we believe the IRS should conduct the required testing,
particularly since it plans to perform object reuse testing on one computer platform and
not the other. The IRS’ response did not address trusted recovery testing.
The CIO agreed with our recommendation to update the ELC to include a requirement
for entrance and exit criteria in the ST&E Plan. However, the corrective action provided
will not adequately address our recommendation. A best practice in test planning is to
create a predefined set of criteria used to determine when a test is ready to be
conducted (entrance criteria) and when a test has been completed at an acceptable
quality level (exit criteria). The IRS responded that it would be incorporating changes
into the milestone exit requirements. Changing the milestone exit criteria will not create
a requirement for entrance and exit criteria in the ST&E Plan.
While we still believe our recommendations are worthwhile, we do not intend to elevate
our disagreements concerning them to the Department of the Treasury for resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment




                                               Table of Contents


Background ............................................................................................... Page 1
While the Integrated Financial System Project Continues to Experience
Significant Schedule Delays, the Project Team Is Making Progress
Toward Deployment .................................................................................. Page 3
Transition Planning Is Improving; However, Additional Improvements
Are Needed ............................................................................................... Page 5
         Recommendations 1 and 2: .......................................................... Page 9

Testing Practices Continue to Need Improvement .................................... Page 9
         Recommendations 3 through 5: .................................................... Page 20
         Recommendations 6 through 8: .................................................... Page 21

Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 22
Appendix II – Major Contributors to This Report........................................ Page 24
Appendix III – Report Distribution List ....................................................... Page 25
Appendix IV – Enterprise Life Cycle Overview .......................................... Page 26
Appendix V – Test Case Elements Required by the Enterprise
Life Cycle................................................................................................... Page 31
Appendix VI – Defect Tracking and Resolution Time Periods ................... Page 33
Appendix VII – Management’s Response to the Draft Report ................... Page 34
 The Integrated Financial System Project Team Needs to Resolve Transition Planning and
           Testing Issues to Increase the Chances of a Successful Deployment

                                  The Internal Revenue Service (IRS) is currently engaged in
Background                        an effort, known as Business Systems Modernization
                                  (BSM), to modernize its systems and associated processes.
                                  To facilitate the success of its modernization efforts, the IRS
                                  hired the Computer Sciences Corporation as the PRIME
                                  contractor and integrator for the BSM program and created
                                  the Business Systems Modernization Office (BSMO) to
                                  guide and oversee the work of the PRIME contractor.
                                  One of the BSM projects is the Integrated Financial System
                                  (IFS), which will help to modernize the IRS financial
                                  systems and processes used to generate annual financial
                                  statements. This new general ledger and accounting system
                                  is based on commercial software from the Systems Analysis
                                  and Program Development (SAP) organization.1
                                  The IFS is intended to provide administrative financial
                                  management information essential for financial statement
                                  preparation. In addition, the development of the IFS
                                  supports one of the President’s Management Agenda
                                  initiatives to improve financial performance, which involves
                                  ensuring Federal Government financial systems produce
                                  accurate and timely financial information.
                                  This is the Treasury Inspector General for Tax
                                  Administration (TIGTA) Information Systems Programs
                                  business unit’s second audit of the IFS project.2 The first
                                  audit3 found the IFS project team had begun important
                                  testing activities, ensured compatibility with the Security




                                  1
                                    The SAP organization is the vendor selected to implement the software
                                  application.
                                  2
                                    The TIGTA Headquarters Operations and Exempt Organizations
                                  Programs business unit has also completed two audits of the IFS:
                                  Requirements Definition of the Integrated Financial System (Reference
                                  Number 2003-10-179, dated August 2003); and Improvements Are
                                  Needed for Subsequent Integrated Financial System Testing (Reference
                                  Number 2004-10-052, dated March 2004). A third audit is nearing
                                  completion, which is addressing whether the IFS complies with
                                  accounting standards and contains certain functionalities
                                  (Audit # 200410003).
                                  3
                                    Risks Are Mounting as the Integrated Financial System Project Team
                                  Strives to Meet an Aggressive Implementation Date (Reference
                                  Number 2004-20-001, dated October 2003).
                                                                                                 Page 1
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                 and Technology Infrastructure Release (STIR),4 and ensured
                                 redundant hardware was planned for implementation.
                                 However, we also determined that risks5 were mounting as
                                 the IFS project team strived to meet an aggressive
                                 deployment date of October 2003. In September 2003, the
                                 IFS project team announced that IFS deployment was being
                                 rescheduled for February 13, 2004, and that a delay until
                                 April 13, 2004, was possible.6 In January 2004, the IFS
                                 project team announced that the IFS would not deploy until
                                 October 2004.
                                 After learning the PRIME contractor would again miss the
                                 target deployment date for the IFS, the Commissioner
                                 testified that the delay was a huge disappointment to the
                                 IRS. The Commissioner indicated the PRIME contractor
                                 was willing to bear the financial burden for the additional
                                 delay; however, the IRS needed to take stronger steps. The
                                 Commissioner stated the IRS would expand competition for
                                 new enforcement projects as well as for the next phase of
                                 the IFS.
                                 This audit was conducted at the BSMO facilities in
                                 New Carrollton, Maryland, during the period
                                 September 2003 through March 2004 in accordance with
                                 Government Auditing Standards. Detailed information on
                                 our audit objectives, scope, and methodology is presented in
                                 Appendix I. Major contributors to the report are listed in
                                 Appendix II. To provide timely feedback during critical
                                 transition and testing activities, we communicated the
                                 results of our analyses to the BSMO during the audit; these
                                 communications are discussed throughout the report.
                                 During the audit, the BSMO informed us of the results of
                                 several studies that were performed to obtain fresh and


                                 4
                                   The STIR project will provide the secure technical infrastructure to
                                 support and enable the delivery of the IRS’ modernized business
                                 systems. The STIR is now a part of the Infrastructure Shared Services
                                 program.
                                 5
                                   We determined that testing practices could be improved, project costs
                                 were increasing, some functionality had been postponed, and disaster
                                 recovery would not be optimal or fully tested prior to implementation.
                                 6
                                   The April deployment date was provided as a risk-adjusted date. This
                                 was the date the project team believed could be met even if all known
                                 risks occurred (i.e., worst case scenario).
                                                                                                 Page 2
   The Integrated Financial System Project Team Needs to Resolve Transition Planning and
             Testing Issues to Increase the Chances of a Successful Deployment

                                    independent assessments from outside experts on the health
                                    of the BSM program. To address the results of the studies,
                                    the IRS and the PRIME contractor have developed and are
                                    implementing an action plan, known as the BSM Challenge
                                    Plan, designed to address the BSM-related study
                                    recommendations. Several of the BSM Challenge Plan
                                    actions, if effective, would address issues within this report
                                    (e.g., ensuring projects strictly follow the Enterprise Life
                                    Cycle (ELC),7 tightly managing business requirements, fully
                                    maturing management disciplines, and ensuring more
                                    effective integration of IRS and PRIME/subcontractor test
                                    teams).
                                    This audit was conducted while changes were being made at
                                    both the BSM program level and the IFS project level. The
                                    majority of our fieldwork was completed in February 2004;
                                    however, we reviewed additional information provided by
                                    the BSMO and the PRIME contractor during March 2004.
                                    Any project changes that have occurred since we concluded
                                    our analyses are not reflected in this report. As a result, this
                                    report may not reflect the most current status.
                                    The IRS and the PRIME contractor recently announced that
While the Integrated Financial
                                    the IFS would not be deployed until October 2004, a delay
System Project Continues to
                                    of 1 year from the originally scheduled deployment date.
Experience Significant Schedule
                                    This delay has been attributed to the following issues: data
Delays, the Project Team Is
                                    conversion,8 health coverage tax credit (HCTC),9 interface
Making Progress Toward
                                    development,10 and testing productivity. While the IFS
Deployment
                                    project has experienced delays, the project team has made
                                    progress in the areas of integration testing, transition
                                    planning, and security test planning.



                                    7
                                      BSM processes and procedures are documented within the ELC. See
                                    Appendix IV for an overview of the ELC.
                                    8
                                      Data conversion involves testing the ability of computer programs to
                                    transform data from a prior application into usable IFS data.
                                    9
                                      The IRS is responsible for administering the program in which
                                    individuals eligible for qualified health coverage pay 35 percent of their
                                    health plan premium each month. The IRS adds the remaining
                                    65 percent to the payment and submits the full 100 percent to the
                                    individual’s designated health plan. The IFS will receive HCTC
                                    information and create payment vouchers.
                                    10
                                       An interface refers to equipment or programs designed to
                                    communicate information from one system to another.
                                                                                                      Page 3
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                 •    Significant integration testing is underway and the
                                      process for moving and deleting requirements is
                                      being followed. The IFS System Integration Testing
                                      (SIT)11 was separated into five parts. As of
                                      March 31, 2004, one part was complete and the
                                      remaining four parts were underway. In addition, the
                                      PRIME contractor informed us that testing productivity
                                      was increasing because both developers and testers are
                                      now included in the SIT environment. We also
                                      determined that the ELC process for moving a set of
                                      requirements to another part of testing and deleting
                                      requirements from the current release was being
                                      documented.
                                 •    The IFS project team became the first BSM project
                                      team to complete a Transition Management Plan
                                      (TMP). In October 2002, the PRIME contractor
                                      enhanced the ELC to require a TMP in place of a
                                      Transition To Support Plan. The TMP, which describes
                                      the plans for transitioning the initial release of the IFS to
                                      the IRS, is a result of the accumulation of best practices
                                      by the PRIME contractor.
                                      While the Transition To Support Plan and the TMP both
                                      describe transition activities, the TMP is a much more
                                      comprehensive document than the Transition To
                                      Support Plan. For instance, the TMP provides a listing
                                      of applications, project documentation, hardware,
                                      software, telecommunications, and database items that
                                      will be transitioned to the IRS.
                                      In September 2003, the IFS project team delivered the
                                      initial version of the IFS TMP. The IFS TMP includes
                                      transition schedules and transition acceptance criteria, as
                                      well as information about user training, staffing, and
                                      other items needed to plan for the transition.
                                 •    The risk of the IRS Information Technology Services
                                      (ITS) organization not being able to operate and
                                      maintain the IFS has been reduced. The IFS project
                                      team has been preparing to implement the transfer of the

                                 11
                                   The SIT ensures all system components (hardware and software) are
                                 working correctly and collectively with other related or dependent
                                 systems.
                                                                                              Page 4
   The Integrated Financial System Project Team Needs to Resolve Transition Planning and
             Testing Issues to Increase the Chances of a Successful Deployment

                                         IFS to the IRS. Initially, the ITS organization did not
                                         believe enough time was being allocated for its
                                         personnel to learn how to operate and maintain the IFS
                                         once it was implemented. The proposed transition time
                                         was much less than the proposed transition time for a
                                         similar BSM project. The IFS project team correctly
                                         documented this as a risk and created a risk reduction
                                         plan. At the end of our audit, all risk reduction activities
                                         were on track, and the project delay had provided
                                         additional transition time.
                                    •    A detailed IFS Security Test and Evaluation (ST&E)
                                         Plan has been prepared. The IRS Office of Mission
                                         Assurance and its security testing contractor have
                                         prepared an ST&E Plan to ensure the IFS application
                                         will meet security requirements. The Plan includes a
                                         good overview of the tests to be conducted, as well as
                                         many test cases designed to ensure security requirements
                                         are met. While the ST&E Plan is a very good start,
                                         several areas in it could be improved (see The ST&E
                                         Plan can be improved section later in this report).12
                                         The actual ST&E for the IFS application will be
                                         conducted just prior to deployment.
                                    While the IFS project team continues to make progress,
                                    improvements can be made in the areas of transition
                                    planning and testing to increase the chances of a successful
                                    deployment.
                                    In September 2003, the IFS project team delivered the IFS
Transition Planning Is
                                    TMP, which describes the plans for transitioning the initial
Improving; However, Additional
                                    release of the IFS to the IRS. Based on our review of the
Improvements Are Needed
                                    TMP and discussions with BSMO, Chief Financial
                                    Officer (CFO), ITS, and PRIME contractor personnel, we
                                    communicated our concerns regarding transition
                                    management to BSMO officials on October 17, 2003.


                                    12
                                       Our review of the ST&E activity was limited to a high-level review of
                                    the ST&E Plan and associated documentation. The TIGTA Information
                                    Systems Programs business unit is currently conducting a review of
                                    security controls for modernized systems. This review will focus on
                                    five BSM projects; the IFS is not included. The objective is to assess
                                    the effectiveness of system security controls for modernized systems.
                                    We will release the results of this audit in a separate audit report.
                                                                                                    Page 5
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                 Our initial impression was that the IFS TMP included a very
                                 good overview of transitional activities; however, the level
                                 of detail in the TMP and related documents was insufficient
                                 and raised a lot of unanswered questions. We were
                                 informed the BSMO also had come to this conclusion and
                                 had requested that the PRIME contractor revise the TMP.
                                 The PRIME contractor delivered a revised version of the
                                 IFS TMP in December 2003. We reviewed the revised
                                 TMP and provided additional input to the BSMO on
                                 January 16, 2004. While our original concerns were not
                                 completely addressed by the revised TMP, we noted that the
                                 IFS project team was making progress in planning for the
                                 IFS transition. The strongest improvement in the revised
                                 TMP was that many of our original concerns were
                                 mentioned, whereas the previous TMP was often silent on
                                 important details.
                                 The ELC requires that transition activities, such as help
                                 desk, service level agreements (SLA),13 configuration
                                 management,14 and training requirements, be covered in the
                                 TMP. Transition issues, if left unresolved, will result in
                                 inadequate clarity as to how to operate and maintain the IFS
                                 once it is implemented.
                                 We determined that further details are needed to fully
                                 address several post-implementation transition planning
                                 activities. These details could be provided in future updates
                                 of the TMP or as related transition documents are created or
                                 updated.
                                 •    Help desk procedures and staffing levels were not
                                      defined. Procedures for help desk call handling,
                                      routing, and escalation were under development. In
                                      addition, staffing levels for the help desk had not been
                                      determined. Once the IFS has been implemented,
                                      procedures will need to be in place to instruct users on
                                      how to get assistance should they have trouble using the


                                 13
                                    An SLA defines what is needed and the service level that is expected
                                 when one organization needs services or resources from another
                                 organization.
                                 14
                                    Configuration management involves establishing proper control over
                                 approved project documentation, hardware, and software and assuring
                                 changes are authorized, controlled, and tracked.
                                                                                                 Page 6
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                      IFS. In addition, CFO and ITS organization personnel
                                      will need to be assigned to answer help desk calls and
                                      will need to know how to handle calls for assistance.
                                 •    Not all SLAs and contracts involving the CFO, the
                                      ITS, and the SAP organization were finalized.
                                      Activities had not been finalized for determining how
                                      the IRS will access the development and test
                                      environments to support ongoing system operations and
                                      maintenance once the IFS has been implemented. The
                                      project team had not completed SLAs for help desk
                                      support, response time, availability, and security for IFS
                                      operations and maintenance support. In addition, the
                                      contract needed to obtain SAP organization support had
                                      not been finalized. Without finalized SLAs and
                                      contracts, the IRS may not receive the needed level of
                                      support once the IFS is implemented.
                                 •    Procedures for configuration management were not
                                      defined. Configuration management processes were
                                      under development. Configuration management
                                      processes are needed to ensure changes to the IFS, after
                                      it is implemented by the CFO and ITS organizations, are
                                      coordinated with the PRIME contractor. Without proper
                                      configuration management processes, unapproved
                                      changes could be made to the IFS, and approved
                                      changes made in the production environment may not
                                      result in needed changes to the IFS development,
                                      testing, and disaster recovery environments. This could
                                      affect the quality of future releases. In a previous audit,
                                      we noted that 1 project was delayed by 4 months and
                                      additional costs were incurred when configuration
                                      management processes were not followed.15
                                      Management Action: Upon reviewing a preliminary
                                      version of this report, BSMO officials informed us that
                                      they agreed planning for post-implementation
                                      configuration management processes was significant
                                      and the PRIME contractor had started working the issue.
                                      However, BSMO officials wanted to clarify that the


                                 15
                                  Additional Actions Are Needed to Establish and Maintain Controls
                                 Over Computer and Hardware Software Changes (Reference
                                 Number 2004-20-026, dated December 2003).
                                                                                             Page 7
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                     current IFS Configuration Management Plan does not
                                     cover post-implementation configuration management
                                     processes because it is not required to be updated to
                                     cover post-implementation until the project team begins
                                     working towards Milestone 5. We agree the IRS and the
                                     PRIME contractor should begin working the
                                     post-implementation configuration management issues
                                     now and, as stated previously, further detail could be
                                     provided in future updates of the TMP or related
                                     transition documents.
                                 •   Training delivery dates were not finalized. Due to
                                     schedule delays, training delivery dates were not
                                     finalized. These dates should be finalized as the IFS
                                     deployment date nears. If not, future operations and
                                     maintenance personnel may not be trained timely.
                                 We also determined that completion of the TMP was not
                                 part of the ELC Milestone Exit Criteria, which are used to
                                 determine whether modernization projects are ready to
                                 proceed to the next life cycle milestone. The Transition To
                                 Support Plan, which has been replaced by the TMP, is part
                                 of the milestone exit criteria, but the TMP has not yet been
                                 included in the ELC Milestone Exit Criteria, according to
                                 BSMO officials, since it is a recent requirement (as
                                 previously stated, the IFS project was the first project to
                                 deliver a TMP). If the TMP is not included as part of the
                                 milestone exit criteria, the IRS may not consider transition
                                 issues when determining whether modernization projects are
                                 ready to proceed to the next milestone.
                                 Management Action: The BSMO stated it was acting on our
                                 concerns as the IFS project moves toward deployment. In
                                 January 2004, the ITS organization approved the IFS TMP
                                 citing 11 conditions, such as help desk and SLAs, that need
                                 to be improved in the future. Also, BSMO officials
                                 informed us that they had created a database to track project
                                 transition issues. According to BSMO officials, the project
                                 team began using the database in May 2004.




                                                                                       Page 8
   The Integrated Financial System Project Team Needs to Resolve Transition Planning and
             Testing Issues to Increase the Chances of a Successful Deployment

                                    Recommendations

                                    To ensure transition issues are resolved prior to acceptance
                                    of the IFS by the IRS and transition management is
                                    considered when exiting appropriate milestones, the Chief
                                    Information Officer (CIO) should ensure:
                                    1. Outstanding IFS transition issues are documented and
                                       tracked to closure.
                                    Management’s Response: The IRS responded that it is now
                                    using a team-level issue tracking log to monitor transition
                                    issues. Any issues not resolved at this level will be elevated
                                    and monitored at weekly executive management meetings.
                                    2. The ELC Milestone Exit Criteria are updated to include
                                       completion of the TMP.
                                    Management’s Response: The IRS responded that the new
                                    ELC framework will require a TMP to be developed at
                                    different milestones during a project’s life cycle.
                                    As part of our prior audit,16 we evaluated IFS testing
Testing Practices Continue to
                                    activities. We found the IFS project was in the early stages
Need Improvement
                                    of testing and testing practices could be improved as the
                                    project advanced to more formal testing. We recommended
                                    IRS management correct these deficiencies prior to the
                                    SIT,17 to help ensure a high-quality system is delivered.
                                    As part of the current audit, we followed up on our previous
                                    testing concerns to determine if progress was being made as
                                    part of the SIT.18 In addition, we reviewed SIT deviation



                                    16
                                       Risks Are Mounting as the Integrated Financial System Project Team
                                    Strives to Meet an Aggressive Implementation Date (Reference
                                    Number 2004-20-001, dated October 2003).
                                    17
                                       The IFS project is also performing Systems Acceptance Testing
                                    (SAT) as part of the SIT. SAT independently assesses the quality of a
                                    system and the system’s readiness for implementation.
                                    18
                                       Our review of SIT activities was limited to reviews of documentation.
                                    Another audit is being conducted by the TIGTA Headquarters
                                    Operations and Exempt Organizations Programs business unit. This
                                    audit focuses on observing and analyzing the actual testing of system
                                    requirements. We will release the results of this audit in a separate audit
                                    report.
                                                                                                       Page 9
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                 forms,19 defect processing,20 and security test planning
                                 documentation.
                                 We identified and communicated the following issues to the
                                 BSMO and Mission Assurance function during our review:
                                 •    SIT documentation could be improved to ensure testing
                                      objectives are being met.
                                 •    Defect management processes need improvement.
                                 •    The ST&E Plan can be improved.
                                 SIT documentation could be improved to ensure testing
                                 objectives are being met
                                 While the SIT is progressing and certain parts of the SIT are
                                 near completion, we found the IFS project team could
                                 improve SIT documentation to ensure testing objectives are
                                 being met. Based on our review of SIT documentation, we
                                 communicated the following concerns to the BSMO on
                                 February 23, 2004, March 3, 2004, and March 18, 2004.
                                 Entrance criteria were not always met
                                 In our previous audit, we determined Application
                                 Qualification Testing (AQT)21 test cases were not fully
                                 documented before the AQT began. Therefore, the AQT
                                 entrance criteria had not been met before AQT activities
                                 were started. We recommended SIT practices be
                                 strengthened based on lessons learned during the initial
                                 AQT.
                                 As part of our current audit, we followed up to determine if
                                 entrance criteria were being met before each part of the SIT
                                 was started. The IFS SIT Test Plan states that Test


                                 19
                                    Test Case Deviations and Waivers Forms include requests for
                                 verification of a requirement or set of requirements to be moved to
                                 another phase or for the obligation to verify functionality, such as a
                                 requirement or set of requirements, be deleted.
                                 20
                                    A defect is a perceived problem found in software, documents,
                                 hardware, or other controlled products. Defect processing is the process
                                 of documenting the defect, tracking the defect and its corrective action,
                                 and reporting the status of each defect.
                                 21
                                    AQT involves testing an application before it is integrated with other
                                 release components. The intent is to discover and resolve errors prior to
                                 more formal SIT.
                                                                                                 Page 10
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                 Readiness Reviews (TRR)22 are the forum for determining if
                                 entrance criteria have been met. A successful TRR inspires
                                 confidence in the testing team and in the adequacy of the
                                 tests to be performed. A TRR checklist is used to document
                                 the TRR meeting and the determination of test readiness.
                                 As required by the ELC, TRRs were conducted for each of
                                 the five parts of the SIT.
                                 No determination of test readiness was documented for one
                                 TRR. For three TRRs, a decision was made to start testing
                                 even though all activities on the TRR checklist had not been
                                 completed. For the final SIT part, all TRR checklist items
                                 were satisfied and the decision to move forward with testing
                                 was documented.
                                 In some cases, a reason was documented as to why certain
                                 checklist items were not met. No reasons were provided for
                                 others. For the part of the SIT that contains the majority of
                                 accounting requirements, we noted the decision was made to
                                 proceed with testing even though all test cases were not
                                 complete.
                                 The BSMO informed us all TRR checklist items were not
                                 being satisfactorily completed prior to testing because the
                                 PRIME contractor had the final determination as to whether
                                 to proceed with testing, and the PRIME contractor had
                                 determined it was willing to assume the risk of proceeding
                                 without having completed all checklist items. Without
                                 successful TRRs, the goal of inspiring confidence in the
                                 testing team and in the adequacy of the tests to be performed
                                 is not met, and the risk increases that testing may be delayed
                                 due to incomplete planning.
                                 The IRS initially planned to complete corrective actions
                                 from our prior audit regarding strengthening SIT practices
                                 by October 31, 2003. The IRS has extended the time
                                 needed to complete prior corrective actions until
                                 May 15, 2004. Since the IRS is in the process of
                                 implementing corrective actions to our previous
                                 recommendation in this area, we are making no additional
                                 recommendations regarding entrance criteria.


                                 22
                                   The purpose of a SIT TRR is to assess risks and determine whether to
                                 proceed with testing.
                                                                                              Page 11
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                 Test cases did not include all required elements
                                 In our previous audit, we found that not all AQT test cases
                                 were complete. For example, test cases did not always
                                 include adequate expected results. We recommended SIT
                                 practices be strengthened based on lessons learned during
                                 the initial AQT.
                                 As part of our current audit, we followed up to determine if
                                 required test case elements were included in SIT test cases
                                 (see Appendix V for an explanation of the test case elements
                                 required by the ELC). We reviewed a random sample of
                                 85 test cases to identify whether they were being developed
                                 in accordance with guidelines. We found that 21 (about
                                 25 percent) of the 85 test cases we reviewed did not include
                                 all required elements, such as expected results.
                                 Without all required test case elements, the tester may not
                                 know what the test is meant to achieve and what should be
                                 done before and after the test. The ELC provides a template
                                 to make required test case elements easily identifiable. The
                                 PRIME contractor informed us it was not completely filling
                                 out the required test case template, but the information
                                 could be found in the detailed test steps. Since the
                                 information in the test steps is not labeled, we could not
                                 determine if the information in the detailed test steps
                                 included all required test case elements. The PRIME
                                 contractor also informed us it would be making corrections
                                 to put the required test case elements in the appropriate part
                                 of the test case form. At the conclusion of our audit in
                                 March 2004, this had not been done.
                                 The IRS initially planned to complete corrective actions
                                 from our prior audit regarding strengthening SIT practices
                                 by October 31, 2003. The IRS has extended the time
                                 needed to complete prior corrective actions until
                                 May 15, 2004. Since the IRS is in the process of
                                 implementing corrective actions to our previous
                                 recommendation in this area, we are making no additional
                                 recommendations regarding test case elements.
                                 The Requirements Traceability Verification Matrix (RTVM)
                                 and related documentation were incomplete
                                 The SIT Test Plan includes several key testing documents:

                                                                                       Page 12
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                 •   RTVM – The RTVM is a tool used to ensure each
                                     system requirement is tested by assigning it to one or
                                     more test cases. This tool helps ensure all requirements
                                     are tested.
                                 •   Software Documentation Automation (SoDA)
                                     Report – The SoDA Report includes a listing of all
                                     documented test cases.
                                 •   Test Execution Schedule – Test execution schedules are
                                     developed by the test team to manage testing activities
                                     by listing the date when each test case is estimated to
                                     start and complete. The schedules should provide one
                                     entry for each planned test case.
                                 In our previous audit, we found the RTVM was not
                                 complete because the AQT test execution schedule referred
                                 to test cases that were not in the AQT RTVM. We
                                 recommended SIT practices be strengthened based on
                                 lessons learned during the initial AQT.
                                 As part of our current audit, we followed up to determine if
                                 the SIT RTVM was complete. Our objective was to
                                 determine if the SIT RTVM contained all requirements and
                                 the requirements were properly linked to the appropriate,
                                 documented test cases as required by the ELC.
                                 Additionally, the ELC states that the RTVM should map
                                 requirements to test cases and the test execution schedule
                                 should provide one entry for each planned test case.
                                 Throughout the audit, we received RTVMs for each of the
                                 different parts of the SIT. For the part that contains the
                                 majority of accounting requirements, we compared the IFS
                                 test execution schedule to the SoDA Report to determine
                                 whether scheduled test cases had been documented. We
                                 determined that 227 (approximately 31 percent) of 731 test
                                 cases listed in the test execution schedule were not
                                 documented in the SoDA Report.
                                 The inconsistency between the test execution schedule and
                                 the SoDA Report was due, in part, to test case naming
                                 inconsistencies. For instance, one test case in the execution
                                 schedule was called IFS-R1-SIT2-TAXES-001. In the
                                 SoDA Report, this test case was called IFS-R1-SIT2-
                                 TAXES_1. The PRIME contractor responded this was due

                                                                                       Page 13
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                 to the fact that the test execution schedule was created
                                 manually and typographical errors were always possible.
                                 In March 2004, we received RTVMs for all parts of the SIT.
                                 The RTVMs did not always map to test cases. Specifically,
                                 85 (approximately 3 percent) out of 2,696 initial IFS
                                 Release 1.0 requirements23 were not mapped to test cases.
                                 In addition, we received SoDA Reports for all five parts of
                                 the SIT. We compared the test case names listed in the
                                 RTVMs to the SoDA Reports and found the SoDA Reports
                                 did not contain 472 (approximately 37 percent) of 1,283 test
                                 cases referred to in the RTVMs.
                                 While we were unable to determine the cause of each
                                 inconsistency between the RTVMs and SoDA Reports, a
                                 recent internal study indicated that the PRIME contractor
                                 needed to enforce requirements definition and program
                                 management compliance. In addition, the PRIME
                                 contractor stated the SIT was a work in progress and the
                                 final SIT report would contain a complete, correct reference
                                 to all test cases in an RTVM and SoDA Report. Without a
                                 complete and accurate test execution schedule, RTVM, and
                                 documented test cases, the IRS cannot determine if all
                                 system requirements are scheduled to be tested and if all test
                                 cases are documented.
                                 The IRS initially planned to complete corrective actions
                                 from our prior audit regarding strengthening SIT practices
                                 by October 31, 2003. The IRS has extended the time
                                 needed to complete prior corrective actions until
                                 May 15, 2004. Since the IRS is in the process of
                                 implementing corrective actions to our previous
                                 recommendation in this area, we are making no additional
                                 recommendations regarding inconsistencies between the
                                 RTVM, test execution schedules, and SoDA Reports.




                                 23
                                   As part of our analysis, we took into account any approved changes to
                                 the initial IFS Release 1.0 requirements, as defined in the IFS system
                                 requirements report.
                                                                                               Page 14
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                 Some requirements did not include a verification and
                                 validation method
                                 The ELC requires that all system requirements include a
                                 verification and validation (V&V) method.24 We found
                                 12 (approximately 26 percent) out of 47 systems
                                 requirements to assist disabled individuals in using
                                 technology,25 which were listed in the RTVM and did not
                                 include a V&V method. Without a V&V method, the IRS
                                 cannot determine how requirements will be verified and
                                 validated. The PRIME contractor stated that each of these
                                 requirements had a verification and validation method;
                                 however, the documentation was not up-to-date.
                                 Deviation forms did not include all signatures
                                 The ELC provides guidance on the signatures required for
                                 moving and deleting requirements from a release. One
                                 required signature for the IFS project is that of the IRS
                                 Internal Management Program Director. During the audit,
                                 the project team prepared deviation forms for
                                 36 requirements. However, the deviation forms did not
                                 include a signature line for the Internal Management
                                 Program Director. Without all required signatures, the
                                 deviation forms are not being adequately approved. The
                                 PRIME contractor stated it was not aware of the
                                 requirement to have the IRS Internal Management Program
                                 Director approve the deviation forms.
                                 Defect management processes need improvement
                                 A defect occurs during testing when the actual results differ
                                 from the expected results documented in the test cases.


                                 24
                                    To verify and validate that system requirements are being met, a
                                 system may be tested, analyzed, or inspected, or a demonstration of a
                                 system’s capability could be conducted.
                                 25
                                    Rehabilitation Act of 1973, Pub. L. No. 93-112, 87 Stat. 355 (codified
                                 as amended in scattered sections of 15 U.S.C., 20 U.S.C., 29 U.S.C.,
                                 36 U.S.C., 41 U.S.C., and 42 U.S.C.). In 1998, the Congress amended
                                 the Rehabilitation Act to require Federal Government agencies to make
                                 their electronic and information technology accessible to people with
                                 disabilities. Section 508 was enacted to eliminate barriers in
                                 information technology, to make available new opportunities for people
                                 with disabilities, and to encourage development of technologies that will
                                 help achieve these goals.
                                                                                                Page 15
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                 Defects discovered during each part of testing are
                                 documented, fixed, and retested.
                                 The PRIME contractor’s responsibilities include ensuring
                                 the defect reporting and tracking process is used to report
                                 and track defects for all modernization projects. Defects
                                 encountered during testing are entered into the PRIME
                                 contractor’s Defect Report Tracking System, which is used
                                 to verify defect resolution and the closing of defects when
                                 tests have been successfully completed.
                                 Based on our review of IFS defect reports, we
                                 communicated the following concerns to the BSMO on
                                 February 23, 2004.
                                 IFS SIT defects have exceeded the average number of
                                 defects for a project of its size and complexity
                                 The BSM Performance Management Office performs data
                                 analyses using a collection of industry data and provides an
                                 estimate of the total number of defects that will be found for
                                 each modernization project. The BSM Performance
                                 Management Office determined that projects similar to the
                                 IFS in size and complexity produced an average of
                                 121 defects.
                                 As of January 29, 2004, the IFS project team reported that it
                                 had encountered 190 defects. As mentioned previously, the
                                 IFS project team has delayed the IFS deployment date until
                                 October 2004 and is continuing to test. Therefore, the
                                 number of defects will undoubtedly increase.
                                 We asked the PRIME contractor if it had performed any
                                 analyses to determine if there was a reason why there were
                                 so many defects and what actions could be taken to reduce
                                 the number of future defects. The PRIME contractor stated
                                 it had performed a defect causal analysis, but as of
                                 March 31, 2004, the PRIME contractor had not provided us
                                 this analysis.26 Without an understanding of why so many


                                 26
                                   Our audit work was completed in March; we were provided with a
                                 copy of the IFS defect causal analysis on April 12, 2004. The analysis
                                 did not provide insight into the entire defect population. However, the
                                 analysis did provide an explanation for the decision to colocate
                                 developers with testers, which could reduce the amount of time it takes
                                 to correct defects.
                                                                                                Page 16
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                 defects have been encountered, the IFS project team may
                                 continue to experience testing delays, and future
                                 modernization projects may not learn lessons based on the
                                 experience of the IFS project team.
                                 Management Action: The BSMO requested that the PRIME
                                 contractor review the input that had been provided
                                 previously on the size and complexity of the IFS project.
                                 The PRIME contractor responded with revised size figures.
                                 Based on the revised figures, the BSMO recomputed the
                                 average number of defects for projects similar to IFS in size
                                 and complexity. The new average number of defects is 440.
                                 While the new average number of defects has increased, the
                                 number of actual defects encountered by the IFS project
                                 team has also increased. As of April 20, 2004, the BSMO
                                 estimates the IFS project team has encountered 30 percent
                                 more defects than comparable projects.
                                 Defects were not being evaluated and resolved timely
                                 The ELC provides goals for timely evaluating and resolving
                                 defects based on the severity of each defect. See
                                 Appendix VI for a listing of these goals.
                                 We randomly selected 50 (approximately 26 percent) of the
                                 190 defects documented as of January 29, 2004. Six
                                 (12 percent) of the 50 defects were not evaluated timely, and
                                 42 (84 percent) defects were not resolved timely.
                                 Without an understanding of why defects are not evaluated
                                 and resolved timely, the IFS project team could continue to
                                 experience testing delays, and future modernization projects
                                 may not learn lessons based on the experience of the IFS
                                 project team.
                                 The IFS project team documented this issue and created an
                                 action plan. One of the actions was for the PRIME
                                 contractor to “analyze why SIT didn’t meet the throughput
                                 and develop a mitigation strategy to prevent reoccurrence.”
                                 The PRIME contractor could not provide any
                                 documentation on this mitigation strategy; however, it stated
                                 the mitigation strategy involved making sure developers are
                                 onsite with testers to view testing and understand any
                                 defects that are encountered. The PRIME contractor also
                                 informed us it was now passing more test cases due to this
                                 new strategy. We determined that the IFS project team had
                                                                                      Page 17
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                 passed 171 test cases from the last workday of February
                                 through the month of March, compared to passing 96 test
                                 cases during the latter part of December and the month of
                                 January.
                                 The ST&E Plan can be improved
                                 The Department of the Treasury Directive 71-10
                                 (August 23, 1999) establishes the security policy for
                                 requiring formal reviews of computer systems that will
                                 become operational. The IRS Internal Revenue Manual
                                 (IRM) provides policies and guidance to be used by IRS
                                 organizations to carry out their respective responsibilities in
                                 information systems security. The IRM indicates that
                                 testing and evaluation of computer systems must validate
                                 the correct implementation of security features.
                                 The Office of Mission Assurance and its contractor are
                                 responsible for conducting ST&Es for all modernization
                                 projects. An ST&E involves the planning and execution of
                                 security tests and the evaluation and analysis of the
                                 subsequent test results. The goals of the ST&E are to
                                 identify the security profile of a particular system and to
                                 assess whether the system configuration and controls meet
                                 the security requirements and are ready for operation.
                                 We reviewed the ST&E Plan and found it included an
                                 understandable outline of the ST&E that would be
                                 conducted for the IFS application. In addition, the ST&E
                                 Plan included many test cases designed to ensure security
                                 requirements are met.
                                 We also found areas in which the ST&E Plan could be
                                 improved, and we communicated the following concerns to
                                 the BSMO and Office of Mission Assurance on
                                 December 17, 2003, and February 4, 2004.
                                 The ST&E Plan does not completely comply with the IRM
                                 The IRM includes a template to be used when developing
                                 the ST&E Plan, but the IFS ST&E Plan does not follow this
                                 template. Therefore, we reviewed the IFS ST&E Plan to
                                 determine if it included the information in the ST&E
                                 template. For example, the ST&E template states that the
                                 Plan should describe the requirements, goals, and functions
                                 of the security system; why the system security is needed,

                                                                                        Page 18
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                 what the system security should do, and how well the
                                 system should do it; and the system security functions as
                                 they relate to the system requirements. However, we were
                                 unable to identify these features within the IFS ST&E Plan.
                                 The Office of Mission Assurance informed us the IRM
                                 template was just a suggested format and further
                                 information could be added to the ST&E Plan as the test
                                 draws nearer. Templates are created to bring about
                                 standardization. When templates are not followed, needed
                                 information may not be included and lessons learned that
                                 led to the creation of the template may have to be relearned.
                                 Some required security features are not being tested
                                 The IRM states that testing and evaluation must validate the
                                 correct implementation of security features, including
                                 identification and authentication, audit capability, access
                                 controls, object reuse, user accountability, trusted recovery,
                                 network connectivity, and transmission encryption (if
                                 applicable).
                                 Trusted recovery27 test cases were not included in the IFS
                                 ST&E Plan, and object reuse28 was being tested on only one
                                 of two computer platforms. The Office of Mission
                                 Assurance informed us the trusted recovery controls were
                                 not being tested because testing these controls was too
                                 costly. The Office of Mission Assurance also informed us it
                                 was testing object reuse on both computer platforms;
                                 however, the test case it referred us to for one platform was
                                 not a test for object reuse. Furthermore, no other test cases
                                 for object reuse could be located for this platform. If these
                                 tests are not conducted, the IRS will not have assurance the
                                 IFS meets all security requirements.
                                 Entrance and exit criteria are not documented in the ST&E
                                 Plan
                                 A best practice in test planning is to create a predefined set
                                 of criteria used to determine when a test is ready to be


                                 27
                                    Trusted recovery controls refer to procedures and/or mechanisms
                                 available to assure that, after a system failure or other discontinuity,
                                 recovery without compromise is possible.
                                 28
                                    Object reuse controls are designed to ensure the authorized user of the
                                 system does not obtain residual data.
                                                                                                 Page 19
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                 conducted (entrance criteria) and when a test has been
                                 completed at an acceptable quality level (exit criteria). The
                                 ELC requires that entrance and exit criteria be defined for
                                 all tests, except the ST&E.
                                 The Office of Mission Assurance informed us it was not
                                 required to document entrance and exit criteria in the ST&E
                                 Plan; however, it was aware of the conditions that must
                                 exist for the ST&E to start and complete. Without
                                 documented entrance and exit criteria, ST&Es could start
                                 prematurely or stop prior to expected results being achieved.

                                 Recommendations

                                 To ensure IFS testing results in a high-quality product and
                                 future modernization projects are improved by lessons
                                 learned by the IFS project team, the CIO should ensure:
                                 3. The RTVM is updated to include a verification and
                                    validation method for all requirements.
                                 Management’s Response: The IRS responded that
                                 the RTVM will be updated. In addition, the new ELC
                                 framework will require updates to the RTVM during the
                                 project’s life cycle.
                                 4. Deviation forms are updated to include a signature line
                                    for all required approving officials.
                                 Management’s Response: The IRS is now including the
                                 correct signature line on deviation forms.
                                 5. The root cause is investigated and resolved for why
                                    defects are more voluminous than expected and for why
                                    defects are being evaluated and resolved slower than
                                    expected.
                                 Management’s Response: The IRS agreed with our
                                 recommendation and will ensure that a lessons learned
                                 report is generated. In addition, the IRS revised its defect
                                 estimate and found the project was within expectations once
                                 a corrected defect estimate was calculated.




                                                                                       Page 20
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                 6. The ELC is updated to include a requirement for
                                    entrance and exit criteria in the ST&E Plan.
                                 Management’s Response: The IRS will be incorporating
                                 changes into the milestone exit requirements.
                                 Office of Audit Comment: The CIO agreed with our
                                 recommendation; however, the corrective action provided
                                 will not adequately address our recommendation. Changing
                                 the milestone exit criteria will not create a requirement for
                                 entrance and exit criteria in the ST&E Plan.
                                 To ensure planning for the upcoming IFS ST&E is as
                                 thorough as possible, the Chief, Mission Assurance, should
                                 ensure:
                                 7. All needed elements from the IRM are included in the
                                    ST&E Plan.
                                 Management’s Response: The IRS responded that the IFS
                                 ST&E Plan or its associated documents will be updated to
                                 address needed elements as identified in the IRM.

                                 8. Trusted recovery and object reuse testing occurs or the
                                    risk of not conducting these tests is documented.
                                 Management’s Response: The CIO disagreed with our
                                 recommendation to ensure trusted recovery and object reuse
                                 testing occurs, or the risk of not conducting these tests is
                                 documented. The IRS responded that object reuse testing is
                                 no longer required by the Department of the Treasury.
                                 Office of Audit Comment: While the Department of the
                                 Treasury requirement may have changed, the IRM still
                                 requires object reuse testing. Therefore, we believe the IRS
                                 should conduct the required testing, particularly since it
                                 plans to perform object reuse testing on one computer
                                 platform and not the other. In addition, the IRS’ response
                                 did not address trusted recovery testing.




                                                                                      Page 21
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                                                                                    Appendix I


                         Detailed Objectives, Scope, and Methodology

The overall objective of this review was to determine if adequate testing processes and
procedures were being followed prior to the deployment of the Integrated Financial System (IFS)
to ensure the system meets expectations. Additionally, we determined if the IFS project team
was adequately planning for the transition1 of operation and maintenance of the system from the
contractor to the Internal Revenue Service (IRS).
To achieve these objectives, we:
I.      Determined if testing support processes for the IFS Release 1.0 were being adequately
        planned for deployment.
        A. Determined if all entrance and exit criteria were being met prior to initiating and
           exiting the various parts of the System Integration Testing (SIT).2
        B. Determined if the IFS project team was adequately controlling waivers and deferrals.
        C. Determined if all aspects of the IFS application would be tested during the SIT.
        D. Determined if test cases included required elements and all scheduled test cases were
           documented. NOTE: The PRIME contractor provided 523 test cases for the second
           part of SIT and 103 test cases for the third part of SIT. To accomplish this audit step,
           we chose a random sample of 75 test cases (approximately 14 percent) from the
           second part of SIT and 10 test cases (approximately 10 percent) from the third part of
           SIT for review. We did not use a statistical sample because we were not going to
           project the results to the entire population.
        E. Determined the quality of the product the PRIME contractor3 had delivered for the
           SIT by comparing the actual number of defects with the estimated number of defects.
        F. Determined if the defect reporting process was being followed and resolved in
           accordance with the Enterprise Life Cycle (ELC)4 during each part of the SIT.
           NOTE: The PRIME contractor provided 190 defect reports from SIT as of
           January 29, 2004. To accomplish this audit step, we chose a random sample of


1
  We focused only on activities required to transition the system to the Internal Revenue Service for operation and
maintenance. See Appendix IV for an overview of the Enterprise Life Cycle.
2
  The SIT ensures all system components (hardware and software) are working correctly and collectively with other
related or dependent systems.
3
  To facilitate success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the PRIME
contractor and integrator for the Business Systems Modernization (BSM) program and created the Business Systems
Modernization Office to guide and oversee the work of the PRIME contractor.
4
  BSM processes and procedures are documented within the ELC. See Appendix IV for an overview of the ELC.
                                                                                                          Page 22
 The Integrated Financial System Project Team Needs to Resolve Transition Planning and
           Testing Issues to Increase the Chances of a Successful Deployment

              50 defect reports (approximately 26 percent) for review. We did not use a statistical
              sample because we were not going to project the results to the entire population.
II.     Determined if the IRS adequately planned for the Security Test and Evaluation (ST&E) by
        reviewing the ST&E Plan.
III.    Determined if adequate plans were in place to ensure the Information Technology Services
        (ITS) and the Chief Financial Officer (CFO) organizations would be ready to provide
        technical and infrastructure support for the IFS Release 1.0 after Milestone 5.5
        A.     Determined if all training needed to accomplish the transfer of the IFS Release 1.0 to
               the IRS had been identified and scheduled.
        B.     Determined if post-Milestone 5 roles and responsibilities had been defined for the
               CFO and ITS organizations and for the PRIME contractor.
        C.     Determined if the IFS project team had documented how to handle changes to the
               Release 1.0 software after Milestone 5.
        D.     Compared the steps being taken to transfer knowledge about the IFS Release 1.0 to
               that of the Custodial Accounting Project (CAP) Release 1.0 to determine if there
               were any additional items the IFS project team should be taking into account.
               NOTE: The CAP is a similar project that should have similar transition activities.
        E.     Reviewed the IFS Transition Management Plan and determined if it included all
               required ELC elements.
        F.     Determined if the risk reduction plans regarding ITS readiness were on track and key
               activities were being completed.
 NOTE: Additional work was scheduled concerning the IFS Deployment Site Readiness Test
 (DSRT).6 Due to delays in IFS testing, at the time of our audit the IFS DSRT Test Plan was not
 available for review and DSRT testing had not been initiated.




 5
   Milestone 5 refers to the activities that need to be completed before the IRS formally accepts a release. See
 Appendix IV for an overview of the ELC.
 6
   The DSRT assesses whether a system as installed is working well enough to support enterprise-wide business use.




                                                                                                          Page 23
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Troy D. Paterson, Audit Manager
Mark K. Carder, Senior Auditor
Charlene L. Elliston, Auditor
Perrin T. Gleaton, Auditor




                                                                                         Page 24
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                                                            Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Associate Chief Information Officer, Management OS:CIO:M
Associate Chief Information Officer, Modernization Management OS:CIO:MM
Deputy Associate Chief Information Officer, Program Management OS:CIO:B:PM
Acting Director, Internal Management Modernization OS:CIO:B:PM:IMM
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Chief, Mission Assurance OS:MA




                                                                                  Page 25
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                                                                                     Appendix IV


                                     Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) defines the processes, products, techniques, roles,
responsibilities, policies, procedures, and standards associated with planning, executing, and
managing business change. It includes redesign of business processes; transformation of the
organization; and development, integration, deployment, and maintenance of the related
information technology applications and infrastructure. Its immediate focus is the Internal
Revenue Service (IRS) Business Systems Modernization (BSM) program. Both the IRS and the
PRIME contractor1 must follow the ELC in developing/acquiring business solutions for
modernization projects.
The ELC framework is a flexible and adaptable structure within which one plans, executes, and
integrates business change. The ELC process layer was created principally from the Computer
Sciences Corporation’s Catalyst® methodology.2 It is intended to improve the acquisition, use,
and management of information technology within the IRS; facilitate management of large-scale
business change; and enhance the methods of decision making and information sharing. Other
components and extensions were added as needed to meet the specific needs of the IRS BSM
program.

ELC Processes

A process is an ordered, interdependent set of activities established to accomplish a specific
purpose. Processes help to define what work needs to be performed. The ELC methodology
includes two major groups of processes:
    Life-Cycle Processes, which are organized into phases and subphases and which address all
    domains of business change.
    Management Processes, which are organized into management areas and which operate
    across the entire life cycle.




1
  To facilitate success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the PRIME
contractor and integrator for the BSM program and created the Business Systems Modernization Office to guide and
oversee the work of the PRIME contractor.
2
  The IRS has acquired a perpetual license to Catalyst® as part of the PRIME contract, subject to certain restrictions.
The license includes rights to all enhancements made to Catalyst® by the Computer Sciences Corporation during the
contract period.
                                                                                                              Page 26
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                                       Enterprise Life-Cycle Processes


                                      IRS Governance and Investment Decision Management
    Management




                                               Program Management and Project Management

                                      Architectural Engineering / Development Coordination

                                                       Management Support Processes


                                                                                                    Business Processes




                                                                                                                             Operations & Support
                                                                                                            Applications
                  Vision & Strategy




                                                        Development
                                        Architecture




                                                                                    Deployment
                                                                      Integration
    Life Cycle




                                                                                                                    Data


                                                                                                 Organizational Change


                                                                                                 Technical Infrastructure


                                                                                                 Facilities Infrastructure


Source: ELC Guide, Page 2-16.




Life-Cycle Processes

The life-cycle processes of the ELC are divided into six phases, as described below:
•                Vision and Strategy - This phase establishes the overall direction and priorities for
                 business change for the enterprise. It also identifies and prioritizes the business or system
                 areas for further analysis.
•                Architecture - This phase establishes the concept/vision, requirements, and design for a
                 particular business area or target system. It also defines the releases for the business area
                 or system.


                                                                                                                                                Page 27
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

•      Development - This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. This phase also
       includes routine planned maintenance of applications.
•      Integration - This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine whether they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
•      Deployment - This phase includes preparation of a release for deployment and actual
       deployment of the release to the deployment sites. During this phase, the deployment
       team puts the solution release into operation at target sites.
•      Operations and Support - This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and
       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
       The Operations and Support phase includes the scheduled activities, such as planned
       maintenance, systems backup, and production output, as well as the nonscheduled
       activities, such as problem resolution and service request delivery, including emergency
       unplanned maintenance of applications. It also includes the support processes required to
       keep the system up and running at the contractually specified level.

Management Processes

Besides the life-cycle processes, the ELC also addresses the various management areas at the
process level. The management areas include:
•      IRS Governance and Investment Decision Management - This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
•      Program Management and Project Management - This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its
       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.
•      Architectural Engineering/Development Coordination - This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as
       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.

                                                                                           Page 28
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

•      Management Support Processes - This area includes common management processes,
       such as quality management and configuration management that operate across multiple
       levels of management.

Milestones

The ELC establishes a set of repeatable processes and a system of milestones, checkpoints, and
reviews that reduce the risks of systems development, accelerate the delivery of business
solutions, and ensure alignment with the overall business strategy. The ELC defines a series of
milestones in the life-cycle processes. Milestones provide for “go/no-go” decision points in the
project and are sometimes associated with funding approval to proceed. They occur at natural
breaks in the process where there is new information regarding costs, benefits, and risks and
where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
•      Milestone 1 - Business Vision and Case for Action. In the activities leading up to
       Milestone 1, executive leadership identifies the direction and priorities for IRS business
       change. These guide which business areas and systems development projects are funded
       for further analysis. The primary decision at Milestone 1 is to select BSM projects based
       on both the enterprise-level Vision and Strategy and the Enterprise Architecture.
•      Milestone 2 - Business Systems Concept and Preliminary Business Case. The
       activities leading up to Milestone 2 establish the project concept, including requirements
       and design elements, as a solution for a specific business area or business system. A
       preliminary business case is also produced. The primary decision at Milestone 2 is to
       approve the solution/system concept and associated plans for a modernization initiative
       and to authorize funding for that solution.
•      Milestone 3 - Business Systems Design and Baseline Business Case. In the activities
       leading up to Milestone 3, the major components of the business solution are analyzed
       and designed. A baseline business case is also produced. The primary decision at
       Milestone 3 is to accept the logical system design and associated plans and to authorize
       funding for development, test, and (if chosen) pilot of that solution.
•      Milestone 4 - Business Systems Development and Enterprise Deployment Decision.
       In the activities leading up to Milestone 4, the business solution is built. The system is
       integrated with other business systems and tested, piloted (usually), and prepared for
       deployment. The primary decision at Milestone 4 is to authorize the release for
       enterprise-wide deployment and commit the necessary resources.
•      Milestone 5 - Business Systems Deployment and Postdeployment Evaluation. In the
       activities leading up to Milestone 5, the business solution is fully deployed, including
       delivery of training on use and maintenance. The primary decision at Milestone 5 is to


                                                                                           Page 29
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

      authorize the release of performance-based compensation based on actual, measured
      performance of the business system.




                                                                                     Page 30
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                                                                       Appendix V


              Test Case Elements Required by the Enterprise Life Cycle

The Enterprise Life Cycle requires the following elements to be included in test cases.

TEST CASE IDENTIFIER

The test case identifier should identify the PROJECT and/or TEST PHASE, RELEASE,
CONFIGURATION ITEM and/or REQUIREMENTS CATEGORY (Functional, Security,
Performance, Regression, etc.), TEST CASE NUMBER (unique alpha numeric or numeric
identifier), and, if the same test is to be executed at multiple locations or against multiple
components, a LOCATION identifier.

TEST SCRIPT IDENTIFIER

The test script identifier should specify the unique identifier of each script necessary to exercise
the functionality and requirements.

TEST CASE DESCRIPTION

The test case description provides the condition (or object or application state) being tested, use
case, use-case scenario, or technical or supplemental requirement from which the test case is
derived.

REQUIREMENT CATEGORY

The requirement category helps to categorize test cases. Examples of test types are Performance,
Cycle, Data Conversion, Security, and External Function.

VERIFICATION AND VALIDATION METHOD

The verification and validation method classifies the approach for ensuring the implementation
of the requirements(s) such as analysis, inspection, test, and demonstration.

REQUIREMENTS

Requirement number and description, also called test inputs, must be provided to identify the
functionality a test is validating. Examples of test inputs are requirements, model elements,
spreadsheet values, etc.

                                                                                             Page 31
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

PRECONDITIONS

A precondition is the description of the constraints a test case requires before it is run. Examples
of preconditions include:
•   Other test case dependencies.
•   Input data conditions.
•   Input files.
•   Preparation activities.
•   Account or password setup.

POSTCONDITIONS

The postconditions of a test case are actions required to restore the tested system to its original
state once the test has passed.

CONFIGURATION

The configuration refers to the hardware and software components and specific settings required
for proper execution of the test case.

ACCEPTANCE CRITERIA

The acceptance criteria are the expected result stated in terms of the output state, condition, or
data value(s) that provides evidence or proof a requirement has been satisfied.




                                                                                              Page 32
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                                                                            Appendix VI


                        Defect Tracking and Resolution Time Periods

Table 1 depicts the goals for evaluating and resolving defect reports.
                              Table 1: Severity and Schedule of Resolution
    Severity                                       Schedule of Resolution
 1 – Critical       Development team evaluates the defect report (DR) within an hour and works the
                    resolution around the clock with the goal of delivering a fix within 24 hours, unless
                    otherwise scheduled.
 2 – High           Development team evaluates the DR within 1 business day with the goal of
                    delivering a fix within 3 business days, unless otherwise scheduled.
 3 – Medium         Development team evaluates the DR within 3 business days with the goal to deliver
                    all severity 3 and 4 fixes. The effort for resolving severity 3 and 4 DRs will be
                    assessed according to the number of severity 1 and 2 DRs being worked, the
 4 – Low
                    remaining test schedule, and management decisions to defer fixes to a later release.
Source: Enterprise Life Cycle (ELC). See Appendix IV for an overview of the ELC.




                                                                                                    Page 33
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment

                                                                        Appendix VII


                   Management’s Response to the Draft Report




                                                                               Page 34
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment




                                                                               Page 35
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment




                                                                               Page 36
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment




                                                                               Page 37
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment




                                                                               Page 38
The Integrated Financial System Project Team Needs to Resolve Transition Planning and
          Testing Issues to Increase the Chances of a Successful Deployment




                                                                               Page 39
